No. 19-969

In the Supreme Court of the United States
JOHN M. MARSHALL, ET AL.,
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.

CERTIFICATE OF COMPLIANCE

I, Nicole A. Saharsky, counsel for Petitioner and a member of the Bar of this
Court, certify pursuant to Rule 33.1(h) of the Rules of this Court that this Brief for
Professors Mary Anderson And W. Brian Dowis As Amici Curiae
In Support Of Petitioners contains 5,042 words, excluding the parts of the brief that
are exempted by Rule 33.1(d).

Nicole A. Saharsky

